                    Fiscal Year 2004 Statutory Audit of
                 Compliance With Notifying Taxpayers of
                Their Rights When Requested to Extend the
                            Assessment Statute

                                     June 2004

                       Reference Number: 2004-40-108




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       June 9, 2004


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                      ENFORCEMENT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Fiscal Year 2004 Statutory Audit of
                                    Compliance With Notifying Taxpayers of Their Rights When
                                    Requested to Extend the Assessment Statute
                                    (Audit # 200340052)


       This report presents the results of our review to determine whether the Internal
       Revenue Service (IRS) was complying with Internal Revenue Code (I.R.C.) Section
       (§) 6501(c)(4)(B) (2000), which requires the IRS to provide notice to taxpayers of their
       rights to decline to extend the assessment statute of limitations or to request that any
       extension be limited to a specific period of time or to specific issues.
       The Treasury Inspector General for Tax Administration (TIGTA) is required to provide
       information annually regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B).1 The
       IRS is required to advise taxpayers of their rights when requesting an extension of the
       statute of limitations on assessment of additional tax and penalties. In passing this law,
       the Congress expressed concern that taxpayers were not being adequately advised of
       their rights to refuse to extend the statute of limitations or to request that a statute
       extension be limited to a specific period of time or to specific issues.
       In summary, there was not always documentation in the case files that taxpayers were
       advised of their rights regarding assessment statute extensions. Current consent forms2
       do not provide an explanation of the taxpayers’ rights to limit or refuse to extend the



       1
        I.R.C. § 7803(d)(1)(C) (2000).
       2
        The IRS uses several different types of consents, depending on the type of tax involved. For example, Consent to
       Extend the Time to Assess Tax (Form 872) is used for income taxes, and Consent to Extend the Time to Assess
       Employment Taxes (Form SS-10) is used for employment taxes.
                                                        2

assessment statute of limitations. In our sample, 21 percent of the case files reviewed3
did not contain any documentation to support that taxpayers had been advised of their
rights. In instances in which taxpayers filed a joint tax return, 47 percent of the case
files did not contain any documentation that each taxpayer listed on the tax returns was
separately informed of his or her rights (i.e., dual notification). In addition, when a
taxpayer had made a declaration of representation, 40 percent of the case files did not
contain any documentation that the IRS had provided both the taxpayers and their
representatives with the advice of rights.
Although the IRS has revised its internal procedures over the last few years to help
enhance controls, our reviews continue to identify instances in which there is no
documentation that taxpayers were advised of their rights. Therefore, we
recommended the Deputy Commissioner for Services and Enforcement revise the
various consent forms to include a statement that the taxpayers have been informed of
their rights regarding assessment statute extensions and have been provided a copy of
Extending the Tax Assessment Period (Publication 1035).
Management’s Response: IRS management agreed in part with our recommendation.
Specifically, they agreed to revise the consent forms to include an additional statement
indicating succinctly what rights taxpayers have when the IRS requests a consent to
extend the assessment statute of limitations. However, IRS management did not agree
to include wording in the consent forms that a copy of the Publication 1035 has been
provided to or received by the taxpayer. While the IRS will continue to issue
Publication 1035 when soliciting consent agreements, management believes it is not
advisable to include this wording because the issuance of Publication 1035 goes
considerably beyond the statutory requirement for notifying taxpayers of their rights.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: We agree that the IRS would be going beyond the statutory
requirement by ensuring the taxpayers had been provided a copy of Publication 1035.
However, the IRS designed Publication 1035 to notify taxpayers of their rights, and we
believe that ensuring that taxpayers are provided a copy would be a benefit to
taxpayers. While we still believe this portion of our recommendation is worthwhile, we
do not intend to elevate our disagreement concerning this matter to the Department of
the Treasury for resolution
Also, the IRS’ response pointed out that in the Fiscal Year (FY) 2003 report, the TIGTA
concluded that the IRS processes used to notify taxpayer representatives of their rights
conformed with statutory requirements, while in the FY 2004 report, the TIGTA
concluded that the same processes did not achieve conformance. However, this is not
the case. Both reports state that the IRS had established guidelines to help ensure that
taxpayers and their representatives were provided information on the taxpayers’ rights,
and that we found some employees were not following those guidelines. Our FY 2004

3
  Some of the sampled tax returns and related case files met multiple criteria. All cases do not have the same
requirements. For example, all cases have a documentation requirement; however, not all cases involve taxpayer
representatives or taxpayers that file joint tax returns.
                                          3

report goes beyond our FY 2003 report in making a recommendation to help further
ensure taxpayers and their representatives would be notified of their rights.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
           Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
              of Their Rights When Requested to Extend the Assessment Statute




                                                  Table of Contents


Background ............................................................................................... Page 1
There Was Not Always Documentation That Taxpayers Were
Advised of Their Rights Regarding Assessment Statute
Extensions ................................................................................................. Page 3
There Was Not Always Documentation That Each Taxpayer
Listed on a Jointly Filed Tax Return Was Advised of His or Her
Rights Regarding Assessment Statute Extensions.................................... Page 5
There Was Not Always Documentation That Both the Taxpayers
and Their Representatives Were Advised of the Taxpayers’ Rights
Regarding Assessment Statute Extensions............................................... Page 6
         Recommendation 1: ........................................................................ Page 7

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures ............................................................ Page 13
Appendix V – Case Review Results by Division ........................................ Page 15
Appendix VI – Management’s Response to the Draft Report .................... Page 16
       Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
          of Their Rights When Requested to Extend the Assessment Statute

                                The Internal Revenue Service (IRS) is required by Internal
Background
                                Revenue Code (I.R.C.) Section (§) 6501(c)(4)(B) (2000) to
                                advise taxpayers of their rights when requesting an
                                extension of the statute of limitations on assessment of
                                additional tax and penalties. In passing this law, the
                                Congress expressed concern that taxpayers were not being
                                adequately advised of their rights to refuse to extend the
                                statute of limitations or to request that a statute extension be
                                limited to a specific period of time or to specific issues.
                                In addition, the IRS Restructuring and Reform Act of 1998
                                (RRA 98)1 § 3201 requires the IRS to send any notice
                                relating to a jointly filed return separately to each individual
                                filing the joint return.
                                Federal regulations require that any notice or other written
                                communication (or copy) required or permitted to be given
                                to a taxpayer in any matter before the IRS must also be
                                given to the taxpayer and to the taxpayer’s representative.2
                                However, the taxpayer can use the Power of Attorney and
                                Declaration of Representative Form (Form 2848) to restrict
                                the notices or information the representative is authorized to
                                receive.
                                If the IRS examines a tax return and determines there is an
                                additional tax liability, it generally must be assessed within
                                3 years from the date the return was due or from the date on
                                which the return was actually filed, whichever is later. This
                                3-year assessment statute of limitations normally cannot be
                                extended without the taxpayer’s written agreement.3
                                To extend the assessment statute, the IRS asks the taxpayer
                                to sign a statute extension agreement form (consent).4 A
                                consent extends the assessment statute of limitations to
                                either a specific date or for an unlimited, indefinite period.

                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  26 Code of Federal Regulations § 601.506 (2003).
                                3
                                  There are some exceptions to the 3-year statute of limitations. For
                                example, I.R.C. § 6501(c)(1) (2003) extends the assessment statute
                                indefinitely when false or fraudulent tax returns are filed.
                                4
                                  IRS employees that most often request assessment statute extensions
                                are examiners in the Examination function of the operating divisions and
                                appeals officers in the Office of Appeals.
                                                                                                Page 1
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         The statute is usually extended for a period that both the IRS
                         and the taxpayer agree is reasonable to complete the
                         examination. The consent can also be negotiated to apply
                         only to certain examination issues.
                         A taxpayer might agree to extend the assessment statute of
                         limitations for the following reasons:
                         •     The taxpayer may want to pursue additional examination
                               issues that are in the taxpayer’s favor in offsetting a
                               proposed tax or that might allow for a tax refund.
                         •     If the remaining time before the statute expires is too
                               short, the IRS may have to prematurely stop the
                               examination process and issue a notice of deficiency that
                               limits the time for the normal appeals process before the
                               taxpayer must file a petition to the United States Tax
                               Court.
                         There are also certain circumstances in which a taxpayer
                         may decide to limit or refuse to extend the assessment
                         statute of limitations:
                         •     The taxpayer may not want to provide the IRS more
                               time to consider additional examination issues.
                         •     The taxpayer may not want to allow the IRS the
                               opportunity to further develop examination issues
                               already under consideration after the normal statute
                               period has expired.
                         The Treasury Inspector General for Tax Administration
                         (TIGTA) is required to provide information annually
                         regarding the IRS’ compliance with I.R.C. § 6501(c)(4)(B).5
                         This report presents the results of our fifth annual review of
                         the IRS’ compliance with the statute extension provisions of
                         the law. In the prior reviews, we evaluated assessment
                         statute extensions processed from January 1 to March 24,
                         2000; April 1 to September 30, 2000; October 1, 2000, to
                         September 30, 2001; and September 30, 2001, to October 5,
                         2002, respectively.
                         We reported that, in the majority of the related case files
                         reviewed, IRS employees advised taxpayers of their rights


                         5
                             I.R.C. § 7803(d)(1)(C) (2000).
                                                                                 Page 2
        Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

                                 to refuse or restrict the scope of the statute extension.
                                 However, we also reported that improved documentation
                                 was needed to ensure taxpayers were informed of their
                                 rights. In response, the IRS agreed to update guidelines;
                                 revise Extending the Tax Assessment Period
                                 (Publication 1035), which is used to notify taxpayers of
                                 their rights; and inform employees of the changes.
                                 For the current audit, we reviewed assessment statute
                                 extensions processed from October 6, 2002, to
                                 September 27, 2003. This review was performed at the
                                 Large and Mid-Size Business Division Headquarters, the
                                 Office of Appeals Headquarters, and the Tax Exempt and
                                 Government Entities Division Headquarters in
                                 Washington, D.C., and the Small Business/Self-Employed
                                 Division in New Carrollton, Maryland, during the period
                                 October 2003 through March 2004. The audit was
                                 conducted in accordance with Government Auditing
                                 Standards. Detailed information on our audit objective,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Our review showed taxpayer rights were potentially affected
There Was Not Always
                                 in a total of 1066 of 274 tax returns sampled. Current
Documentation That Taxpayers
                                 consent forms7 do not provide an explanation of the
Were Advised of Their Rights
                                 taxpayers’ rights to limit or refuse to extend the assessment
Regarding Assessment Statute
                                 statute of limitations. Therefore, we considered that IRS
Extensions
                                 employees advised taxpayers of their rights if any of the
                                 following documentation was found in the related case files:
                                 •   A copy of Request to Extend Statute (Letter 907
                                     (L-907)), Letter Transmitting Consent Extending Period
                                     of Limitation (Letter 967 (L-967)), or comparable cover


                                 6
                                   This number is a unique count of taxpayers that had exceptions under
                                 one or more of our three finding areas (i.e., taxpayer notification, dual
                                 notification, and representative notification). Even though each sampled
                                 tax return and related case file could have multiple findings for each
                                 criterion tested, for this number, each case with an exception was only
                                 counted once.
                                 7
                                   The IRS uses several different types of consents, depending on the
                                 type of tax involved. For example, Consent to Extend the Time to
                                 Assess Tax (Form 872) is used for income taxes, and Consent to Extend
                                 the Time to Assess Employment Taxes (Form SS-10) is used for
                                 employment taxes.
                                                                                                  Page 3
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                             letter updated to include an explanation of taxpayer
                             rights addressed to the taxpayer.
                         •   A record that Publication 1035 was provided to the
                             taxpayer, as documented in the examination activity
                             record or as shown as an enclosure on a cover letter.
                             This Publication provides a detailed explanation of
                             taxpayer rights.
                         •   A notation in the examination activity record indicating
                             the taxpayer was given the required notification of
                             rights.
                         For 58 (21 percent) of 274 tax returns sampled, the case
                         files did not contain any documentation to support that
                         taxpayers had been advised of their rights. As a result, we
                         could not determine if the IRS protected the right of these
                         taxpayers to be advised of their statute extension options.
                         This occurred because employees were not following IRS
                         internal guidelines. Internal procedures and the current
                         Internal Revenue Manual (IRM) require IRS employees to
                         provide the taxpayer with an L-907 or L-967, with
                         Publication 1035 as an enclosure, and document on an
                         activity record whether the taxpayer was notified of his or
                         her rights.
                         In 111 of the 274 tax returns sampled, the IRS requested
                         multiple extensions. Although the IRS advised taxpayers of
                         their rights for extension requests at some time during the
                         examinations, there was no record in 20 (18 percent) of the
                         111 related case files documenting that the taxpayers were
                         notified of their rights for the last extensions requested.
                         I.R.C. § 6501(c)(4)(B) (2000) provides that the IRS must
                         notify the taxpayer of his or her rights on each occasion
                         when the taxpayer is requested to consent to an extension.
                         It would be a potential violation of taxpayers’ rights if the
                         IRS did not notify taxpayers of their options when
                         requesting assessment statute extensions. If taxpayers are
                         not notified of their rights, they might not be aware that they
                         have the rights to refuse to extend the period of limitations
                         or to request that any extension be limited to specific issues
                         or to a specific period of time.
                         Although the IRS has revised its internal procedures over
                         the last few years to help enhance controls, our reviews
                                                                                 Page 4
         Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
            of Their Rights When Requested to Extend the Assessment Statute

                                  continue to identify instances in which there is no
                                  documentation that the taxpayers were advised of their
                                  rights. To help ensure taxpayers are aware of their rights,
                                  we believe the IRS should use the various consent forms to
                                  confirm that taxpayers have been informed of their rights to
                                  limit or to refuse to extend the assessment statute of
                                  limitations. We believe the various consent forms should be
                                  revised to include a statement that the taxpayer has been
                                  informed of his or her rights regarding assessment statute
                                  extensions and has been provided a copy of
                                  Publication 1035. The specific rights would not need to
                                  be outlined on the consent forms.
                                  For 52 (47 percent) of the 110 jointly filed tax returns
There Was Not Always
                                  sampled, there was no documentation in the related case
Documentation That Each
                                  files that each taxpayer listed on the tax returns was
Taxpayer Listed on a Jointly
                                  separately informed of his or her rights (i.e., dual
Filed Tax Return Was Advised
                                  notification).8 This occurred because employees were not
of His or Her Rights Regarding
                                  following IRS internal guidelines.
Assessment Statute Extensions
                                  RRA 98 § 3201 requires the IRS to send any notice relating
                                  to a jointly filed tax return separately to each individual
                                  filing the joint tax return. The Congress intended that
                                  separate notices would increase the likelihood that separated
                                  or divorced spouses receive such notices, as well as increase
                                  the likelihood that the IRS will be made aware of address
                                  changes that apply to one, but not both, spouses. There
                                  could be a violation of taxpayer rights if both taxpayers are
                                  not notified of their rights to refuse to extend the period of
                                  limitations or to request that any extension be limited to
                                  specific issues or to a specific period of time.
                                  The guidelines covering requests for taxpayers to extend the
                                  assessment statute require notices relating to joint tax
                                  returns be sent to each individual filing the joint tax return.
                                  Specifically, the IRM requires IRS employees to provide
                                  each individual filing a joint tax return with an L-907 or
                                  L-967.
                                  Although the IRS has revised its internal procedures over
                                  the last few years to help enhance compliance with dual
                                  notification, our reviews continue to identify instances in

                                  8
                                   Some of the 274 sampled tax returns and related case files met
                                  multiple criteria.
                                                                                                    Page 5
        Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

                                 which there was no documentation in the case files that each
                                 taxpayer listed on the tax returns was separately informed of
                                 his or her rights. We believe the IRS should revise the
                                 various consent forms to include a statement that the
                                 taxpayer has been informed of his or her rights regarding
                                 assessment statute extensions and has been provided a copy
                                 of Publication 1035.
                                 For 66 (40 percent) of the 167 tax returns sampled in which
There Was Not Always
                                 taxpayers made a declaration of representation, there was no
Documentation That Both the
                                 documentation in the case files that the IRS had provided
Taxpayers and Their
                                 both the taxpayers and their representatives with the advice
Representatives Were Advised
                                 of rights.9 Again, this occurred because employees were not
of the Taxpayers’ Rights
                                 following IRS internal guidelines.
Regarding Assessment Statute
Extensions                       Internal IRS procedures and current Federal Government
                                 regulations require that any notice or other written
                                 communication (or copy) required or permitted to be given
                                 to a taxpayer in any matter before the IRS must also be
                                 given, unless restricted by the taxpayer, to the taxpayer’s
                                 representative.
                                 Taxpayer rights or taxpayer burden could be affected if the
                                 IRS does not follow the Federal Government regulations
                                 and notify both the taxpayer and the taxpayer’s
                                 representative of the rights to refuse to extend the period of
                                 limitations or to request that any extension be limited to
                                 specific issues or to a specific period of time.
                                 Although the IRS has revised its internal procedures over
                                 the last few years to help ensure both the taxpayers and their
                                 representatives were provided information on the taxpayers’
                                 rights, our reviews continue to identify instances in which
                                 there was no documentation in the case files that this had
                                 occurred. If the consent forms were revised, the taxpayers
                                 that signed the consent forms would be informed of their
                                 rights. In our sample of the individual tax returns, almost
                                 half the taxpayers had signed the consent form although
                                 they had made a declaration of representation. In the




                                 9
                                  Some of the 274 sampled tax returns and related case files met
                                 multiple criteria.
                                                                                                   Page 6
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         remaining cases, the representative had signed the consent
                         forms.10

                         Recommendation

                         1. The Deputy Commissioner for Services and
                            Enforcement should revise the various consent forms to
                            include a statement that the taxpayer has been informed
                            of his or her rights regarding assessment statute
                            extensions and has been provided a copy of
                            Publication 1035.
                         Management’s Response: IRS management agreed in part
                         with our recommendation. Specifically, they agreed to
                         revise the consent forms to include an additional statement
                         indicating succinctly what rights taxpayers have when the
                         IRS requests a consent to extend the assessment statute of
                         limitations. However, IRS management did not agree to
                         include wording in the consent forms that a copy of the
                         Publication 1035 has been provided to or received by the
                         taxpayer. While the IRS will continue to issue
                         Publication 1035 when soliciting consent agreements,
                         management believes it is not advisable to include this
                         wording because the issuance of Publication 1035 goes
                         considerably beyond the statutory requirement for notifying
                         taxpayers of their rights.
                         Office of Audit Comment: We agree that the IRS would be
                         going beyond the statutory requirement by ensuring the
                         taxpayers had been provided a copy of the Publication 1035.
                         However, the IRS designed Publication 1035 to notify
                         taxpayers of their rights, and we believe ensuring that
                         taxpayers are provided a copy would be a benefit to
                         taxpayers.
                         Also, the IRS’ response pointed out that in the Fiscal Year
                         (FY) 2003 report, the TIGTA had concluded that the IRS
                         processes used to notify taxpayer representatives of their
                         rights conformed with statutory requirements, while in the
                         FY 2004 report, the TIGTA concluded that the processes
                         did not achieve conformance. We believe that the FY 2003

                         10
                           In some instances, both the taxpayer and his or her representative
                         signed the consent forms.
                                                                                          Page 7
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                         and FY 2004 reports both state that the IRS had established
                         guidelines to help ensure that both the taxpayers and their
                         representatives were provided information on the taxpayers’
                         rights, and we found employees were not following those
                         guidelines. In our FY 2004 report, we have made a
                         recommendation to help further ensure taxpayers and their
                         representatives would be notified of their rights.




                                                                              Page 8
          Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
             of Their Rights When Requested to Extend the Assessment Statute

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) was complying with Internal Revenue Code Section (§) 6501(c)(4)(B) (2000), which
requires the IRS to provide notice to taxpayers of their rights to decline to extend the assessment
statute of limitations or to request that any extension be limited to a specific period of time or to
specific issues. To accomplish our objective, we:
I.      Determined whether taxpayers were being advised of their rights related to assessment
        statute extension requests.
        A. Reviewed the Examination function Internal Revenue Manual (IRM), IRS
           memoranda and regulations, and the Office of Appeals (Appeals) IRM and other
           Appeals guidelines to determine the policies and procedures for processing requests
           to extend the assessment statute of limitations.
        B. Reviewed a sample of Business Master File (BMF)1 and Individual Master File
           (IMF)2 tax returns with taxpayer consents to extend assessment statutes processed
           from October 6, 2002, to September 27, 2003.
             1. Obtained BMF and IMF extracts to identify a population of tax returns having
                extensions of the assessment statute of limitations. The identified tax return
                populations were 5,977 and 7,557, respectively. We selected those extensions
                processed during cycles 200241 through 200339, which included
                October 6, 2002, to September 27, 2003. The IRS processes data in 1-week
                cycles.
             2. Selected for review a statistical sample of 620 tax returns from the category of
                cases likely to have statute extensions by taxpayer consent from the Examination
                function and Appeals processes. We reviewed 620 tax returns and related case
                files, eliminating 346 tax returns that did not meet our criteria or because we did
                not receive all requested tax returns and related case files. Therefore, only
                274 reviewed tax returns and related case files met the audit criteria. This was not
                sufficient for a statistical sample. Within this judgmental sample of 274 tax
                returns, there were 110 jointly filed tax returns and 167 tax returns for which the
                taxpayers had made a declaration of representation.3



1
  The IRS database that consists of Federal tax-related transactions and business accounts. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  Some of the 274 sampled tax returns and related case files met multiple criteria.
                                                                                                            Page 9
       Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
          of Their Rights When Requested to Extend the Assessment Statute

          3. Identified which business unit or function requested the extension and discussed
             any questionable extensions identified with IRS management for concurrence or
             an explanation of why the IRS believed proper procedures were followed.
          4. Validated the IMF and BMF data for 10 fields on a judgmental sample of 101 of
             the 13,534 records identified in step I.B.1. above to determine the reliability of the
             data.
II.    Reviewed the 274 selected tax returns and case files for documentation verifying that
       both taxpayers on jointly filed returns were separately advised of their rights related to
       statute extensions.
III.   Reviewed the 274 selected tax returns and case files for documentation verifying that
       taxpayers’ representatives were notified of the taxpayers’ rights related to statute
       extensions, when appropriate.
IV.    Determined the status of the IRS corrective actions proposed to address the
       recommendations presented in the prior Treasury Inspector General for Tax
       Administration audit reports.




                                                                                            Page 10
        Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
David Hartman, Senior Auditor
Kristi Larson, Senior Auditor
James Traynor, Senior Auditor
Jean Kao, Auditor
Sylvia Sloan-Copeland, Auditor
Arlene Feskanich, Information Technology Specialist
Judith Harrald, Information Technology Specialist




                                                                                         Page 11
       Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
          of Their Rights When Requested to Extend the Assessment Statute

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Chief, Appeals AP
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Field Specialists, Large and Mid-Size Business Division SE:LM:FS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Chief, Appeals AP:P:S
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM




                                                                                 Page 12
          Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
             of Their Rights When Requested to Extend the Assessment Statute

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; Internal Revenue Code Section
    (§) 6501(c)(4)(B) (2000); 781 of 274 taxpayer accounts affected (see page 3).
•   Taxpayer Rights and Entitlements – Potential; Internal Revenue Service (IRS) Restructuring
    and Reform Act of 19982 § 3201; 52 of 110 jointly filed accounts affected (see page 5).
•   Taxpayer Rights and Entitlements – Potential; 26 Code of Federal Regulations (C.F.R.)
    § 601.506;3 66 of 167 tax accounts in which the taxpayers declared a representative
    (see page 6).
Methodology Used to Measure the Reported Benefit:
We reviewed a judgmental sample of 274 tax returns with consents to extend the assessment
statute of limitations period. The returns were identified from the Fiscal Year 2003 Business
Master File (BMF)4 and Individual Master File (IMF)5 databases. The review showed taxpayer
rights were potentially affected in a total of 1066 (39 percent) of 274 tax returns sampled. Each
sampled tax return and related case file could have multiple findings for each criterion.
Related case files were not documented in 78 of the 274 taxpayer accounts to show the taxpayers
were notified of their rights to refuse or to restrict the scope of the statute extensions. There was
no documentation in the related case files that each taxpayer listed on the tax returns was
separately informed of his or her rights in 52 of 110 jointly filed accounts. In addition, in 66 of
167 accounts in which taxpayers made declarations of representation, there was no

1
  These 78 cases are comprised of 58 cases with no evidence that the taxpayers had been advised of their rights and
20 cases with evidence that the taxpayers had been advised of their rights at some time but not for the last extensions
requested.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  26 C.F.R. § 601.506 (2003).
4
  The BMF is the IRS database that consists of Federal tax-related transactions and business accounts. These
include employment taxes, income taxes on businesses, and excise taxes.
5
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
6
  This number is a unique count of taxpayers that had exceptions under one or more of our three finding areas (i.e.,
taxpayer notification, dual notification, and representative notification). Even though each sampled tax return and
related case file could have multiple findings for each criterion tested, for this number, each case with an exception
was only counted once.
                                                                                                             Page 13
        Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
           of Their Rights When Requested to Extend the Assessment Statute

documentation in the related case files that the IRS had provided both the taxpayers and their
representatives with the advice of rights.




                                                                                          Page 14
         Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
            of Their Rights When Requested to Extend the Assessment Statute

                                                                                                   Appendix V


                                 Case Review Results by Division
                                                                        1           2          3           4
                                                   Appeals       LMSB       SB/SE       TE/GE       Totals
Compliance With Requirement to
Notify Taxpayers of Their Rights
Number of Cases in Which There Was No
Evidence the Taxpayer Was Advised of Rights            14          21          21          2          58

Number of Cases in Which the Taxpayer Was
Previously Notified but Not Notified for the
Extension in Our Sample                                10           6          4           0          20


Compliance With Internal Guidelines
or Regulations
Number of Cases in Which There Was No
Documentation That Separate Notices Were Sent
                                             5
to Both Joint Filers (Applicable Cases: 110)           18           4          30          0          52
Number of Cases in Which There Was No
Evidence That Notices Were Given to Both the
Taxpayer and Representative                            24          15          27          0          66
(Applicable Cases: 167)




1
  Large and Mid-Size Business Division.
2
  Small Business/Self-Employed Division.
3
  Tax Exempt and Government Entities Division.
4
  No cases from the Wage and Investment Division occurred in our sample.
5
  All cases do not have the same requirements. For example, all cases have a documentation requirement; however,
not all cases involve taxpayer representatives or taxpayers that file joint tax returns.
                                                                                                        Page 15
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute

                                                                  Appendix VI


            Management’s Response to the Draft Report




                                                                          Page 16
Fiscal Year 2004 Statutory Audit of Compliance With Notifying Taxpayers
   of Their Rights When Requested to Extend the Assessment Statute




                                                                          Page 17
